♦
No

Supreme Court, U.S.
FILED

JUN 0 3 2121

- 1777

OFFICE OF THE CLERK

IN THE SUPREME COURT OF THE UNITED STATES

WILLARD HALL,
Petitioner,
Versus
EDWARD DUSTIN BICKHAM, Warden,
B.B. “Sixty” Rayburn Correctional Center,
Respondent.

ON PETITION FOR WRIT OF CERTIORARI
FROM THE UNITED SATES FIFTH CIRCUIT COURT OF APPEALS

PETITION FOR WRIT OF CERTIORARI

Willard Hall #595605
Rayburn Correctional Center
27268 Hwy 21 N.
Angie, La 70426
(Pro-Se Litigant)

RECEtVi-J
JUN - 9 2021
OFFICE OF THE CLERK
I SUPREME COURT. U S

#

QUESTIONS PRESENTED
(1) Whether the United States Fifth Circuit Court of Appeals and United States District Court
for the Eastern District of Louisiana properly concluded the petitioner was not deprived of
his right to a fair and impartial trial due to his jury not representing a fair cross-section of
his community.
(2) Whether the United States Fifth Circuit Court of Appeals and United States District Court
for the Eastern District of Louisiana properly concluded the petitioner received effective
assistance of counsel by counsel’s actions of (a) failing to procure a pre-trial hearing on
probable cause and (b) failing to challenge the composition of the jury.

11

LIST OF PARTIES
All parties appear in the caption of the case on the cover page.

in

TABLE OF CONTENTS
Questions Presented

11

List of Parties

in

Table of Contents

IV

Index to Appendix

IV

Table of Authorities Cited

v

Opinions Below

1

Jurisdiction

2

Constitutional and Statutory Provisions Involved

2

Statement of the Case

4

Reason for Granting this Petition

8
8

I. Deprivation of a Fair and Impartial Trial

25

II. Ineffective Assistance of Counsel

26

Conclusion
INDEX TO APPENDICES
“A”

Decision of the St. Tammany Parish Court dated November 29, 2017 decided in Division
“C”, under Case No. 11-CR8-111954.

“B”

Decision of the First Circuit Court of Appeals on Supervisory Writ dated 04/09/18 under
Case No. 2018-KW-0146.

“C”

Louisiana Supreme Court’s Ruling on Certiorari published under
State v. Hall, 2018-KH-0796 (La. 4/22/19); 267 So.3d 1106.

“D”

Magistrate’s Report and Recommendation published under
Hall v. Tanner, 19-10783, 2019 WL 6896890 (E.D. La. 11/27/19).

“E”

United States Eastern District Court of Louisiana’s Ruling published under
Hall v. Tanner, 19-10783, 2020 WL 815588 (E.D. La. 12/17/19).

IV

i___

“P”

Fifth Circuit Court of Appeals denial of COA dated 04/09/21 under Case No.: 20-30058.

TABLE OF AUTHORITIES CITED
CASES
STATE CASES
None
FEDERAL CASES
PAGE
Betts v. Brady, 316 U.S. 455, 62 S.Ct. 1252 (1942).........................
Brecht v. Abrahamson, 507 U.S. 619, 113 S.Ct. 1710(1993)..........
Duncan v. Louisiana, 391 U.S. 145, 88 S.Ct. 1444..........................
Evitts v. Lucey, 372 U.S. 335, 83 S.Ct. 792 (1963).........................
Gilday v. Callahan, 59 F.3d 257 (3rd Cir. 1995)...............................
Hall v. Tanner, 2019 WL 6895569 (12/18/19).................................
Haskell v. Superintendent Greene Sci, 866 F.3d 139 (3rd Cir. 2017)
Johnson v. Zerbst, 304 U.S. 458, 58 S.Ct. 1019 (1938)...................
Lambert v. Blackwell, 387 F.3d 210 (3rd Cir. 2004)........................
Mooney v. Holohan, 294 U.S. 103, 55 S.Ct. 340 (1935)..................
People v. Savvides, 1 N.Y.2d 554, 136 N.E. 2d. 853 (1956)...........
Powell v. Alabama, 287 U.S. 45, 53 S.Ct. 55 (1932).......................
Smith v. Texas, 311 U.S. 128,61 S.Ct. 164(1940).........................
Strickland v. Washington, 466 U.S. 668, 104 S.Ct. 2052 (1984).....
Taylor v. Louisiana, 419 U.S. 522, 95 S.Ct. 692 (1975)..................
U.S. v. Agurs, 427 U.S. 97, 96 S.Ct. 2392.......................................
U.S. v. Bagley, 473 U.S. 667, 105 S.Ct 3375 (1985)......................
U.S. v. Clay, 720 F.3d 1021 (3rd Cir. 2013).....................................
U.S. v. Cronic, 766 U.S. 648, 104 S.Ct. 2039 (1984)......................
Williams v. Taylor, 529 U.S. 362, 120 S.Ct. 1495 (2000)...............

9
11
8, 10
9
11
1
10
9
10
11
12
9
9
6, 8, 9, 25
.... 10, 25
....11, 12
11
11, 12
9
9

STATUTES AND RULES
28U.S.C. § 2253 ................

v, 2

28U.S.C. § 1254(1)............

v, 2

28 U.S.C. § 1257(a) ...........

v, 2

v

OTHER
Louisiana Criminal Code of Procedure Article 930.2

6

Louisiana Criminal Code of Procedure Article 930.4

5

Louisiana Criminal Code of Procedure Article 930.8.

5

vi

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
The Petitioner, Willard Hall, respectfully prays that this Court issue a Writ of Certiorari to
review the judgment of the United States Fifth Circuit Court of Appeals below.
OPINIONS BELOW
The United States Court of Appeal for the Fifth Circuit denied the petitioner’s request for
Certificate of Appealability on April 9,2021 under Case No. 20-30058, Hall v. Bickham. It appears
at Appendix F attached to the petition. It has been designated for publishing, but not yet reported.
The opinion of the United States Fifth Circuit Court of Appeals appears at Appendix F
attached to petition. It has not been designated for publication.
The opinion of the United States District Court, Eastern District of Louisiana, appears at
Appendix E attached to the petition. It has been designated for publication and reported at Hall v.
Tanner, 2019 WL 6895569 (12/18/19).

1

JURISDICTION
The date on which the United States Court of Appeals, Fifth Circuit, decided petitioner’s
case was April 9, 2021. No petition for rehearing was timely filed in instant case.
The jurisdiction of this Court is invoked under 28 U.S.C. §1254(1) and 28 U.S.C. §1257(a).
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
•

28 U.S.C. § 1254(1)

•

28 U.S.C. §1257(a).

•

U.S. Const., Amend. VI
In all criminal prosecutions, the accused shall... have the Assistance of Counsel for his
defense.

•

U.S. Const., Amend. XIV
Section 1. All persons bom or naturalized in the United States, and subject to the
jurisdiction thereof, are citizens of the United States and of the State wherein they reside.
No State shall make or enforce any law which shall abridge the privileges or immunities
of citizens of the United States; nor shall any State deprive any person of life, liberty, or
property, without due process of law; nor deny to any person within its jurisdiction the
equal protection of the laws.

•

28 U.S.C. § 2253
(a) In a habeas corpus proceeding . . . before a district judge, the final order shall be
subject to review, on appeal, by the court of appeals for the circuit in which the
proceedings is held.
(b) There shall be no right of appeal from a final order in proceeding to test the validity of
a warrant to remove to another district or place for commitment or trial a person charged
with a criminal offense against the United States, or to test the validity of such person’s
detention pending removal proceedings.
(c)(1) Unless a circuit justice or judge issues a certificate of appealability, an appeal may

2

not be taken to the court of appeals from (A) the final order in a habeas corpus proceeding in which the detention complained of
arises out of process issued by a State court;
•

(2) A certificate of appealability may issue under paragraph (1) only if the applicant has
made a substantial showing of the denial of a constitutional right.

•

(3) The certificate of appealability under paragraph (1) shall indicate which specific issue
or issues satisfy the showing required by paragraph (2).

•

Louisiana Constitution Article /, § 2,13, and 16.

3

STATEMENT OF THE CASE
On January 10, 2011, the Petitioner was charged by way of Bill of Information in
Washington Parish with two counts of attempted first degree murder of a police officer. He entered
pleas of not guilty on February 14, 2011. On March 12 and 13, 2012, Petitioner was tried before
a jury and was found guilty of the lesser charges of aggravated battery of Deputy Evans and
attempted manslaughter of Deputy Lee. On May 7, 2012, the trial court denied Petitioner’s
motions for new trial and for post-verdict judgment of acquittal. After waiver of legal delays, the
court sentenced Petitioner to serve concurrent sentences of eight years on count one and fifteen
years on count two. The court also denied Petitioner’s motion to reconsider the sentences.
On direct appeal to the Louisiana First Circuit Court of Appeal, Petitioner’s counsel
asserted that the evidence was insufficient to support the verdicts and that the sentences were
excessive. On June 11, 2013, the Louisiana First Circuit affirmed Petitioner’s convictions and
sentences finding the claims meritless.
The Louisiana Supreme Court denied Petitioner’s related writ application without stated
reasons on February 7, 2014. Petitioner’s convictions were final under federal law ninety (90)
days later, on May 8, 2014, when he did not file a writ application with the United States Supreme
Court.
On July 8, 2014, Petitioner’s counsel filed an application for post-conviction relief with
the state trial court which asserted two grounds for relief: (1) Petitioner was denied effective
assistance of counsel, because counsel failed to consult with him, obtain his input, or use
peremptory challenges to place men on the jury, and (2) the jury was comprised of elven women
in violation of the cross-section requirement, which systematically excluded men. On August 11,
4

2014, the state trial court advised Petitioner and his retained counsel that the application was
deficient and would not be considered by the court until corrected. Neither the attorney nor
Petitioner responded to the letter.
More than two-years and seven months later, on March 24, 2017, Petitioner newly retained
counsel filed a motion requesting the court address the duplicate-copy of the deficient 2014
application for post-conviction attached to the motion. On May 12, 2017, the state trial court
denied the motion and the application finding that the 2014 writ application was never corrected
and the copy provided was still uncorrected and untimely.
Despite the accuracy of that ruling, on October 16,2017, the Louisiana First Circuit granted
Petitioner’s pro se writ application with instructions for the state trial court to consider the new
application for post-conviction relief attached to his writ application and which was construed by
the circuit court as an attempt to correct the timely filed 2014 application for post-conviction relief.
Apparently unsure of how to execute the remand instructions, the state trial court reiterated
Petitioner’s failure to timely correct the 2014 application and despite this, reviewed the claims
presented in the original 2014 application finding them to be meritless. The court further noted
that newly asserted issues in the corrected 2017 application were procedurally barred under La. C.
Cr.P. art. 930.4 and untimely under La. C.Cr.P. art. 930.8. Out of an abundance of caution,
however, the state trial court also considered those claims which were delineated as follows: (1)
the state trial court exceeded its jurisdiction when it refused to hold a preliminary examination to
determine probable cause for his arrest and the illegal search and seizure or hold an evidentiary
hearing on the admissibility of the police report; (2) The petitioner received ineffective assistance
of counsel when counsel’s failure to challenge the search and seizure created a conflict of interest,

5

#

and (3) appellate counsel was ineffective when he failed to assert on direct appeal that there was a
jurisdictional defect, a Fourth Amendment violation, and the ineffective assistance of trial counsel.
After review, the state trial court found these claims conclusory and meritless, and also noted that
Petitioner was not entitled under state law to a writ of habeas corpus.
The Louisiana First Circuit denied Petitioner’s related writ application without stated
reasons on April 9, 2018. On April 22, 2019, the Louisiana Supreme Court denied Petitioner’s
subsequent writ application holding that Petitioner failed to show ineffective assistance of counsel
under Strickland v. Washington, 466 U.S. 668 (1984), and as to the other claims, failed to satisfy
his burden of proof under La. Code Crim. P. art. 930.2.
Petitioner filed a writ for habeas corpus relief, and the magistrate judge recommended that
it be denied with prejudice.

On December 18, 2019, the District Court Judge adopted the

magistrate’s findings and denied and dismissed with prejudice. Petitioner filed an appeal into the
United States Court of Appeal for the Fifth Circuit, which was denied on Petitioner’s request for
Certificate of Appealability on April 9, 2021.

Petitioner is filing a Petition for Writ of Certiorari

into this Honorable Court seeking for a COA in the Fifth Circuit in order for the claims to be
reviewed on their merits.
A BRIEF OVERVIEW OF THE FACTS
The record reflects that, around midnight on November 12, 2010, Sergeant Randy Revere
with the Washington Parish Sheriffs Office received a call from Hall’s then-wife Deborah,
because Hall had locked her out of their house for the second night and refused to let her back
inside. Upon their arrival at the scene, Sergeant Roy Lee and Deputy Timothy Evans met with
Mrs. Hall, and she asked them to assist her in getting inside the house. Deputy Evans slightly

6

opened the storm door to knock on the wooden front door. He announced his presence and that he
was with the Washington Parish Sheriffs Office. After the first or second knock, Hall called out,
“I don’t give a f*** who you are, get off my property.” Hall then opened the wooden door, but
not the storm door and was standing there naked holding a gun at his side. Deputy Evans told Hall
at least twice to drop his weapon, and he did not comply. The officers collectively ordered Hall
four or five times to drop his weapon and he did not comply. Sergeant Lee then told Hall that if
he did not drop his weapon, he would be tasered. Hall, who appeared agitated and irate, cursed
and told the officers to get off of his property.
Sergeant Lee thought Hall was preparing to shoot, because he appeared jittery. With both
doors open, Sergeant Lee deployed his taser. Hall, however, closed the wooden door which broke
the leads to the taser. When the storm door closed, Deputy Evans heard a loud bang, saw the glass
in the storm door shatter, and felt a bum in his right thigh. He discovered that a round came
through his pants made a rash on his skin and nicked his magazine pouch. Approximately thirtyfive seconds later, Sergeant Lee heard a second shot and realized the defendant shot again. Almost
immediately after hearing the second shot, Sergeant Lee’s middle finger on his right hand was
grazed by a bullet and went completely numb. Both officers retreated to their units to take cover
and call for additional units.
In the meantime, Hall called 9-1-1 from inside the house and reported that the officers shot
him with a taser. He demanded that state troopers report to the scene. Hall also spoke with
Sergeant Revere over the phone, and Sergeant Revere convinced him to go outside without his
firearm to talk to Sergeant Lee and Deputy Evans. When Detective Glen McClendon reported to
the scene to investigate, Hall was in the officers’ custody.

7

REASON FOR GRANTING THIS PETITION
Issue One
Whether the United States Fifth Circuit Court of Appeals and United States District Courtfor
the Eastern District of Louisiana properly concluded the petitioner was not deprived ofhis right
to afair and impartial trial due to hisjury not representing a fair cross-section ofhis community.
The United States Supreme Court accepts the fair cross-section requirement as a
fundamental to the jury trial guaranteed by the Sixth Amendment and is convinced that the
requirement has solid foundation. The purpose of the jury is to guard against the exercise of
arbitrary power to make available the common sense judgment of the community as a hedge
against the overzealous or mistaken prosecutor and in preference to the professional or perhaps
over conditioned or biased response of ajudge, Duncan v. Louisiana, 391 U.S. 145, 88 S.Ct. 1444.
The jury of 11 women violates the Due Process and Equal Protection Clauses of the Fifth, Sixth,
and Fourteenth Amendments of the United States Constitution. Strickland v. Washington, 466 U.S.
668, 685, 104 S.Ct. 2052, 2064, 80 L.Ed. 2d 674 (1984).
LAW AND ARGUMENT
A person who happens to be a lawyer and is present at trial alongside the accused, however,
is not enough to satisfy the constitutional command. The Sixth Amendment recognizes the right
to the assistance of counsel, because it envisions counsels playing a vote that is crucial to the ability
of the adversarial system to produce just results. An accused is entitled to be assisted by an
attorney, whether retained or appointed, who plays the role necessary to ensure that the trial is fair.
The Gideon v. Wainwright court has recognized that the Sixth Amendment right to counsel exists
and is needed in order to protect the fundamental right to a fair trial. The Constitution guarantees
a fair trial through the Due Process Clauses, but it defines the basic elements of a trial largely

8

through the several provisions of the Sixth Amendment including, the counsel clause.
The Louisiana Supreme Court’s per curiam opinion was on unreasonable application of the
United States Supreme Court’s precedents. A state court decision is “contrary to” federal law
established by the Supreme Court “if the state court arrives at a conclusion opposite to that reached
by the U.S. Supreme Court on a question of law or if the state court decides a case differently than
the U.S. Supreme Court has on a set of materially indistinguishable facts”. Williams v. Taylor,
529 U.S. 362, —, 120 S.Ct. 1495, 1523, 146 L.Ed. 2d 389 (2000). The state courts rejections of
the defendant’s Sixth and Fourteenth Amendments argument failed to extend a clearly established
legal principle to a new context in a way that is objectively unreasonable. The Supreme Court of
the United States has held that “the deprivation of the right to the assistance of counsel in a criminal
trial proceeding...shall warrant reversal.” Strickland v. Washington, 466 U.S. 686-697-698, 104
S.Ct. 2052 (1984) according to United States v. Cronic, 766 U.S. 648, 104 S.Ct. 2039, 2044 n.ll,
80 L.Ed. 2d 657 (1984) Evitts v. Lucey, 372 U.S. 335, 9 L.Ed. 2d 799, 83 S.Ct. 792, 93 ALR 2d
733 (1963) held that the Sixth Amendment right to counsel was “so fundamental and essential to
a fair trial, and so to due process of law, it is made obligatory upon the states by the Fourteenth
Amendment.” Id. at 340, 9 L.Ed. 2d 799, 83 S.Ct. 792, 23 Ohio Ops 2d 258, 93 ALR 2d 733
(1963); quoting Betts v. Brady, 316 U.S. 455, 465, 86 L.Ed. 1595, 62 S.Ct. 1252 (1942); Johnson
v. Zerhst, 304 U.S. 458, 82 L.Ed. 1461, 58 S.Ct. 1019, 146 ALR 357 (1938); Powell v. Alabama,
287 U.S. 45, 77 L.Ed. 158, 53 S.Ct. 55, 84 ALR 527 (1932).
The Courts prior cases are instructive. Both in the cause of exercising supervisory powers
over trials in federal courts and in the constitutional context, the court has unambiguously declared
that the American concept of the jury trial contemplates a jury drawn from a fair cross section of
the community. A unanimous court stated in Smith v. Texas, 311 U.S. 128, 130, 85 L.Ed. 84, 61
9

S.Ct. 164 (1940) that, “it is part of the established tradition on the use of juries as instruments of
public justice that the jury be a body truly representative of the community”. Additionally, I was
deprived of the constitutional right to a fair and impartial trial because the trial court erroneously
impaneled a total of eleven (11) women who were sworn into serve as jurors. The jury impaneled
by the trial court in this case was not a cross-section as it systematically excluded men. A criminal
defendant has a Sixth Amendment right to a fair cross-section on his jury. Taylor v. Louisiana,
419 U.S. 522, 95 S.Ct. 692, 42 L.Ed. 690 (1975).
The United States Supreme Court accepts the fair cross-section requirement as fundamental
to the jury trial guaranteed by the Sixth Amendment and is convinced that the requirement has
solid foundation. The purpose of a jury is to guard against the exercise of arbitrary power to make
available the common sense judgment of the community as a hedge against the overzealous or
mistaken prosecutor and in preference to the professional or perhaps over conditioned or biased
response of a judge. Duncan v. Louisiana, 391 U.S. 145, 88 S.Ct. 1444.
Habeas petitioner carried his burden to establish his claim that a witness’s false testimony
at his trial violated his Fourteenth Amendment right to due process, because he made the
"reasonable likelihood" showing required. Haskell v, Superintendent Greene Sci, 866 F.3d 139,
3rd Cir. (2017).
In Lambert v. Blackwell, 387 F.3d 210 (3rd Cir. 2004), the Court noted that when "the
prosecution's case includes perjured testimony and the prosecution knew, or should have known,
of the perjury ... [or] when the government, although not soliciting false evidence, allows it to go
uncorrected when it appears at trial,. . . the conviction must be set aside if there is any reasonable
likelihood that the false testimony could have affected the judgment of the jury."
The U.S. Supreme Court has long counseled that "a deliberate deception of court and jury
10

by the presentation of testimony known to be perjured ... is inconsistent with the rudimentary
demands ofjustice." Mooney v. Holohan, 294 U.S. 103, 112, 55 S. Ct. 340, 79 L. Ed. 791 (1935).
Put differently, "it is a well-established rule that a conviction obtained by the knowing use of
perjured testimony is fundamentally unfair." U.S. v. Bagley, 473 U.S. 667, 105 S.Ct. 3375 (1985).
In Brecht v. Abrahamson, 507 U.S. 619, 113 S.Ct. 1710 (1993), itself the Court recognized "the
writ of habeas corpus has historically been regarded as an extraordinary remedy, a bulwark against
convictions that violate fundamental fairness." 507 U.S. at 633 (internal quotation marks omitted).
Thus it is difficult to see how concerns of finality would trump rudimentary demands of justice
and fundamental fairness when those are precisely the values the writ of habeas corpus is intended
to protect.
Second, when the state knowingly presents perjured testimony, we are not presented with
a "good-faith attempt to honor constitutional rights," Id. at 635, but instead with a bad-faith effort
to deprive the defendant of his right to due process and obtain a conviction through deceit. After
all, courts apply Napue's "strict standard of materiality" to perjured-testimony cases "not just
because they involve prosecutorial misconduct, but more importantly because they involve a
corruption of the truth-seeking function of the trial process" by the state itself. U.S. v. Agurs, 427
U.S. 97, 96 S.Ct. 2392.
Third, there is little chance that excluding perjured testimony claims from Brecht analysis
will "degrade the prominence of the trial itself." Brecht v. Abrahamson, 507 U.S. 619, 113 S.Ct.
1710 (1993). A defendant will usually be unable to litigate his claims of perjured testimony at "the
trial itself' because the trial is where the perjury occurs. And it is possible, even likely, that
petitioners will not know of the prosecution's use of perjured testimony until after the opportunity
for direct review has passed.
11

#

Finally, the First and Sixth Circuits note that, without Brecht review, perjured testimony faces a
lower bar than suppression claims. Gilday v. Callahan, 59 F.3d 257 (3rd Cir. 1995); U.S. v. Clay,
720 F.3d 1021 (3rd Cir. 2013). But to us that seems to be a feature, not a bug. If suppression of
evidence (and thereby, the truth) is a serious constitutional error, its fabrication is a greater error
still. That is why the Supreme Court set out differing materiality standards for the three types of
error that implicate Brady: (1) the government's knowing presentation of or failure to correct false
testimony, (2) its failure to provide requested exculpatory evidence, and (3) its failure to volunteer
exculpatory evidence never requested. See Agurs, 427 {866 F.3d 152} U.S. at 103-06. Presenting
false testimony cuts to the core of a defendant's right to due process. It thus makes sense that "the
materiality standard for false testimony is lower, more favorable to the defendant, and hostile to
the prosecution as compared to the standard for a general Brady withholding violation." Clay, 720
F.3d at 1026.
At root is how can a defendant possibly enjoy his right to a fair trial when the state is
willing to present (or fails to correct) lies told by its own witness and then vouches for and relies
on that witness's supposed honesty in its closing? As the Supreme Court recited in Napue, it is of
no consequence that the falsehood bore upon the witness' credibility rather than directly upon
defendant's guilt. A lie is a lie, no matter what its subject, and, if it is in any way relevant to the
case, the district attorney has the responsibility and duty to correct what he knows to be false and
elicit the truth. 360 U.S. at 269-70 (quoting People v. Savvides, 1 N.Y. 2d 554, 136 N.E. 2d 853,
854-55, 154 N.Y. S.2d 885 (N.Y. 1956)) (internal ellipses omitted).
For these reasons, we hold that the actual-prejudice standard of Brecht does not apply to
claims on habeas that the state has knowingly presented or knowingly failed to correct perjured
testimony. A reasonable likelihood that the perjured testimony affected the judgment of the jury is
12

#

all that is required.
Haskell has demonstrated that there is a reasonable likelihood that Blue’s false testimony
could have affected the judgment of the jury. Hence he is entitled to relief. “He need not go on to
show that this error had a substantial and injurious effect or influence in determining the jury's
verdict because, when the state has corrupted the truth-seeking function of the trial by knowingly
presenting or failing to correct perjured testimony, the threat to a defendant's right to due process
is at its apex and the state's interests are at their nadir. Accordingly, we grant Haskell's habeas
petition and remand for further proceedings consistent with this opinion.” Haskell, supra.
The Petitioner believes he had ineffective assistance of counsel, because he believes he
should have had a pre-trial hearing. The Petitioner believes he and counsel could have proven they
had no probable cause for the arrest. Petitioner also believes he and counsel could have brought
additional information of Mens Rea that reads you have to show and prove intent before you can
charge them with attempt. In the case of attempted murder, you have to prove they sat and waited
or stalked someone and tried to kill them and failed. So I should not have been facing attempted
first degree murder when I went to trial. And I told him I wanted men on the jury and I end up
with 11 women jury. He keeps telling me “I believe we will be alright.” I believe if I had men on
the jury they would have known that a bullet can not stop and change direction in the course of its
flight. In court I tried to get my lawyer to ask how they could get grazed on their right side when
they testified they were standing to the left side of the door in a bladed position and their right side
turned away from the door. They were not in the path of the bullets, the bullets past in front of
them from their left to their right. There is no way they could have been grazed by a bullet.
In their testimony Deputy Timothy Evans claims he was grazed on his right thigh when he
heard the report of the first shot. Deputy Roy Lee claims he was grazed by a bullet when he heard
13

#

the report of the second shot. I tried to get my lawyer to ask how this was possible and he did not.
When I was being tased my gun went off two times, and one of the bullets went into the front
bumper of Deborah’s truck that was parked straight in front of the door. That makes only one
bullet that was not accounted for. This too proves they are lying and my lawyer would not question
them about any of these lies, and I tried to get him to ask questions so the women jury could see
the lies and understand and he did not ask anything. I was in my house and had pushed my door
to close it and when I did see Roy Lee shot me with the taser. I was removing myself from the
situation, because I have had 3 heart attacks and I know they like to tase people, you see it in the
newspaper all the time where they have tased someone. And when I opened the door, Deputy Roy
Lee already had the taser pointed at the door. From the testimony of Deborah Hall, she had them
expecting trouble. From the testimony of the two deputies they could have told her to go back to
the motel and come back in the day time or talk to a lawyer, but they did not do that. And from
Deborah’s testimony she told them “When he comes to the door it wasn’t going to be pretty” and
they still came pounding on my door when they should have told her to leave. The reason she
thought things may not be pretty being she came by the night before at 12:30 she was drunk and
pilled up, and woke me up so she could get in, and curse me for everything she could think of.
And she knew I would think it was her again, but what she done was set the two deputies up. If I
had known, they were going to tell the lies they did I would have brought the door with the bullet
holes and a laser pointer to shine through the holes and prove they could not be grazed by a bullet.
I talked with my lawyer about 4 times before court for just a few minutes each time, and every
time we talked he would tell me everything is fine, I had done nothing wrong and it was the two
deputies that was in the wrong they had no lawful business at my house and no cause to arrest me.
I will be 68 years old in June and I have been here 8 years, because of the lies the two deputies
14

#

told in court. And when I filed my case in the Easter District Court the assistant district attorney
Matthew Caplan falsified the response to my petition and said, The Facts: a brief overview. The
petitioner shot two police officers who were responding to a domestic incident. Now I have the
assistant D.A. telling lies to the court. And as you can see the testimony of Deputy Timothy Evans,
and Deputy Roy Lee the two arresting officers and Randy Revene the dispatcher, that it was a call
to assist not a domestic incident. I believe this is why Lewis V. Murray the assistant D.A. at the
time wanted the women jury, so they would not understand the testimony and would not know
when they were telling lies. Lewis Murray refers to the call as a domestic call a lot of times in the
case, and my lawyer never objects to it being used. The D.A. knows the two deputies are wrong
and doing everything they can to keep me in here even if it means them telling lies too. I’m not a
prosecuting attorney but I know with the bullet in the bumper of the truck and only two shots went
off both deputies could not be grazed by bullets as they claim. Lewis Murray knew it too, and he
knowingly used the perjured testimony and failed to correct their testimony and even vouched for
their veracity in closing argument. I believe from the questions and answers from the transcript I
sent with this you can plainly see the lies. And as you can see they did not go to the hospital or
take me to the hospital. And I believe they are required to take anyone to the hospital that has been
tased.
TRANSCRIPTS
On direct-examination by assistant district attorney Lewis V. Murray and criminal defense
attorney Roy K. Bums of the arresting officers, Timothy Evans and Roy Lee and the dispatcher
Randy Revene.
By Mr. Murray questions to Randy Revene Transcript Page 179-180, 20-22,29-30,32-1

15

Q. Did you first get a call from a Deborah Hall do you remember that?
A. Yes, Sir.
Q. Was it a 911 call or was it just a call?
A. From Mrs. Hall, it was just a regular landline call
Q. Okay. There was no - she didn’t - no 911 type of emergency?
A. No. Sir.
On cross-examination by Roy Bums Transcript page 190, 23-26
Q. So in terms of a crime being committed, you did not dispatch anyone, any place, due to a crime
being committed, is that correct?
A. That’s correct.
On direct examination of Timothy Evans by Lewis Murray Tr. p. 218, 30-32, P. 219, 1-19,
26-29, p. 220, 31-32
Q. Did you and he both meet with her before doing anything?
A. Yes.
Q. And did she describe to you what was she wanted or what was her problem?
A. Yes. Yes. She explained to us that for whatever reason he was not allowing her to gain entry
into the dwelling and requested that we assist her with that.
Q. And what were you and Deputy Lee going to do?
Did you all talk about what you were going to do?
A. Yes. In fashion, the strong majority of time, we just talk to both parties involved. And if
there’s any kind of friction or something, we do our best to have one go separate ways until the
next day or a later time when all the friction is settled.
Q. In this situation, would you - or could you legally or would you have forced him to allow her
to come into the house?
A. No.
Q. Would you have forced him to do anything?
A. No.
Q. What time of day or night did you get there?

16

A. Shortly after midnight I want to say. Right at midnight.
Q. So, how long did Mr. Hall - did he respond to you when you first knocked at all?

P. 221,1-9, p. 233, 6-12; p. 224, 23-28; p. 225, 7-12

A. It was I don’t exactly recall if it was the first or the second knock, but he did respond and telling
us some profanities involved, do you want me to say specifically what was said or?
Q. Yes.
A. Okay. We announced ourselves “Sheriffs department” and through the door, closed door, we
heard Mr. Hall say through the door “I don’t give a fuck who you are get off mv property”.
Q. Now after he came to the door and said that what happen next?
A. He open.
Q. Did you talk with him some more?
A. No. From what I recall, there were no words after that. But the door open, he stood there, a
pistol at his side.
Q. And did you once he opened door, did you announce who you were again?
A. Yes Sheriffs department, drop the pistol drop the pistol, Sheriffs department
Q. Did you tell him anything other than that?
A. There was no time
Q. Okay. What’s the next thing that I guess, let me ask you this; if you know, where was Sergeant
Lee?
A. He was directly what we call “bladed” in other words poisoned beside me in a safe manner out
of the actual opening of the door.

P. 225, 25-28; P. 226,11-15,18-25; p. 229, 28-30; p. 230, 9-14; p. 231,15-17

Q. How long was this confrontation, I guess, if I can call it that?
A. Matter of seconds. Matter of seconds.
Happen very quickly
Q. Oka. All night. So what happened after Deputy Lee said what he said: If you don’t put the

17

weapon down, I’m going to tase you, or however he said it?
A. Mr. Hall did not comply with any of our demands or requests. That’s when Sergeant Lee
engaged his Taser
Q. Was the storm door open or closed at this time?
A. It was open
Q. Okay. How was it open? Was it I think some of those house some sort of little latch that will
prop them all the wav open and then some are spring loaded I guess.
A. I forget, it happened so quickly. I forget the details on how it was open; but I know it was open.
Q. So after the door slammed, you - all made a move to which direction?
A. Even further to the left even further to the left
Q. All right, what happen next?
A. The screen door closed all the way from when it was slightly ajar, heard a loud bang, the glass
shattered, fell in toward us, at which point I felt a slight bum on my right thigh just below my
magazine pouch
Q. Did that break the skin as it went through your pants?
A. It just made like a rash, like a minor graze

P. 231,18-19
Q. It didn’t draw blood?
A. No, Sir, it didn’t draw blood.

p. 240, 24-27, 31-32; p. 241, 21-24, 27-32; p. 242,1-2, 28-32
On cross-examination of Timothy Evans by Roy Burns
Q. Now by your own testimony, you say that you go to those things, you were not going to force
him to do anything
A. Correct.
Q. And in fact, by your statement and your policy, is that there are things that could have been
done the next day such as get some court order. Is that correct?
A. Yes.
Q. When you went to his house, you were not going to force him to do anything?

18

#

A. Correct,
Q. The man asked you to leave, didn’t he? I don’t want you sir - he might have caused. Is
profanity a crime?
A. No
Q. Okay. An the real - then the next question is, by what authority did you remain on his premises
when you weren’t going to force him to do anything, by what authority did vou remain there and
open his door?
A. It’s a good faith intention as law enforcement officials, a good faith intention to try resolve it
versus hostility while were there.
Q. All right. And isn’t it not the fact that vou are the one that opened the storm door and held it
open in order for it to be tased through, because this man had

p. 242,12; p. 243,1-4; p. 245,26-32; p. 246,1-17
his hand, by your testimony, one of his hands was on the gun dropped down toward the floor?
A. Uh-huh (affirmative response)
Q. And then the other one was on the door to shut it?
A. Correct.
Q. Now, at the exact moment that you commanded him to put his gun down, what crime did he
commit?
A. Noncompliance with us for our safety and everybody’s safety involved
Q. Okay. The answer is: He didn’t commit a crime.
He had not committed a crime. Is that correct?
A. Other than disturbing the peace or something to that effect. I would have to say no.
Q. Okay. And the - you say the disturbing the peace is he wouldn’t let his wife in nor would he
want you on his property but his offense then now is disturbing the peace. But you can’t articulate
other than disturbing the peace a reason to have other then he didn’t comply. So my idea is - do
vou believe that people have civil rights
A. Absolutely
Q. - to bear arms?
A. Yes.

19

Q. — to be secure in their own home?
A. Without a doubt
Q. - and not have to talk to policeman?
A. And not have to talk t policeman?

p. 246,18-21; p. 247, 7-20; p. 248, 8-17, 32; p. 249,1
Q. Right. Let’s go the simplest thing. A person has Miranda rights when they commit a crime
not to speak to you?
A. uh-huh ('affirmative response)
Q. Don’t you think you enforced you will upon him, sir when you told him he had to come out of
the house and talk to you. Is that not a form of imposing your will on a person that night? You
are going to make him comply with that?
A. It was more of a suggestion than an order. Can we talk to you for a minute, Mr. Hall and try
to get this resolved, you know perhaps there is something we can come to terms with to where you
can get along in a situation. Something along those lines.
Q. So in terms of law enforcement you weren’t protecting, you were being a social worker?
A. We form many facets
Q. Okay. Now, the next question, then, would lead me to believe is, if he had not fired his weapon
and he tased, what is it that you would then have done? Would you have gone in the house and
stood him up and say, were sorry we tased you, but we’re now going to force you to talk to us, or
force his wife into the door? What would your explanation have been to him had he not fired and
he was tased? What explanation would you have said?
A. He did not comply with our demand
Q. And he hadn’t committed a crime and you tased him and your explanation is we’re - we’re not
going

p. 249, 2-5; p. 252, 27-32; p. 256, 27-31
to force vou to do anything, but we are going to force you to put the weapon down with the Taser,
correct?

20

A. It’s law on the force continuum
Q. So you would think that a person who has been tased has much coordination?
A. No.
Q. They don’t have any coordination: is that correct?
A. As a rule, correct.
Q. Apparently, there are two holes that go through the door and two rounds that were fired. Do
you know which one of them struck vour leg and your duty belt?
A. No. Sir.

On direct examination with Lewis Murray on pages 230, 9-14 and page 231,15-17,18-19 you
will see he said hefelt it on thefirst report of the gun.
P. 261,11-17; p. 263,16-19; p. 262, 6-12, 31-32; p. 266,1-5, 26-29
On direct examination ofRoy Lee by Lewis Murray
Q. Did you an he talk with Mrs. Hall?
A. Yes, Sir, we did.
Q. After talking with her, what did you all do?
A. We went to the door, we advised her that we would speak to him for her, that if he refused
there was nothing we could do at that time of night, she’d have to consult an attorney
Q. Okay. So did Mr. Hall come to the door immediately?
A. Within about approximately two minutes it seemed like, yes, sir, as I recall.
Q. All right. Did you - what was Mr. Hall saying or doing when you all were addressing him
there after the door had opened?
A. Basically, Sir just cursing us out and telling us to get the hell off his property. He didn’t want
Mrs. Hall on the property. He was very irate, very agitated
Q. Did you make a decision what to do?
A. Yes. Sir, At that time I decided to go ahead and display the Taser. I fired it and almost at the
immediate moment that I fired it, Mr. Hall slammed the door.
Q. Which door are you talking about?
A. The wooden door
Q. After where were you and Deputy Evans when you heard the report and the glass breaking?

21

A. We were still standing approximately the same

p. 267, 9-19, 27-28; p. 268, 2-10; p. 271, 22-27
position we were, bladed off to the left side.
Q. Did you - during the cause of this, did you feel anything strike your body?
A. Yes, sir. I did. I had transitioned my Taser into my left hand and was going to draw for my
service weapon and my middle finger on my hand just went totally numb
Q. When did you feel that? I mean, you - you said you transitioned A. Almost immediately on hearing the second report.
All of this went down so instantaneously, it was all at once.
Q. Which side do you carry vour service revolver?
A. On mv right.
Q. Okay.
A. - when I felt it. Mv original though was that I had hit mv thumb on my holster, or my weapon
or mv finger on mv holster or mv weapon or something and then it just sent a radiating numbness.
Q. In terms of the first report and the second report, as you have described them, then - which
report did you feel the numbness?
A. The second one.
Q. You were not - there was no penetrating wounds to you?
A. No, sir, it was grazed
Q. And that was on the second. I guess simultaneous with the second report?
A. Right. At the same time.

P. 278,17-19; p. 280, 5-16; p. 276,16-18
Cross-examination ofRoy Lee by Roy Burns
Q. All right. Now, one of the rights that he has is to have a firearm?
A. This is correct.
Q. Okay. And from the standpoint of you didn’t have, in terms of her conversation with her, he
was not accused of a crime of domestic abuse batter, it’s the only thing is he locked her out?
A. At that time, correct.
22

Q. All right. And so, form the standpoint of the instances of when you arrest somebody, he was
not suspected of a crime?
A. Not at that time, so sir.
Q. And he was not committing a crime in your presence?
A. No. Sir.
Q. All right. He didn’t appear drunk - did he appear drunk?
A. No. sir.

p. 195, 7-13; p. 196, 23-29; p. 200,14-18,27-30
On direct-examination ofDeborah Hall by Lewis Murray
Q. What did you ask them to do?
A. I asked them to help me get in mv house, and I told them that when he come to the door it
wasn’t going to be pretty
Q. And by that did you mean that he was going to be angry?
A. Angry and drunk
Q. Now, you said you - you all were standing to one side of the door. Which side?
A. My truck was parked right in front of the door
Q. Uh-huh (affirmative response)
A. - over to the side just a little bit and we were standing at the left hand front of the truck
Q. Okay. What’s the next thing that happened after they told him four times, I believe you said
to put the gun down?
A. They told him that they were fixing to tase him
Q. Do you remember if that statement was made more then once?
A. I don’t think so. I think they just told him one time.
p. 206,14-23, 27-32; p. 210,11-22
Q. Now, from the standpoint of the gun. When you say you saw the gun or the police saw the
gun, where did you see the gun?
A. It was in his right hand
Q. And where was it pointed?

23

A. When I saw it, it was point - he had it down beside him, pointing to the floor.
Q. Down on the floor: is that correct?
A. He was just holding it: he wasn’t point it anywhere.
Q. All right. And at the time he was tased, he was not pointing that gun at anyone: is that correct?
A. No. Sir.
Q. That’s correct, my answer is: He was not pointing the gun?
A. Yes, that’s correct.
Q. And from my standpoint is that the bullet came out underneath, there’s a picture of it. the
bullets came out underneath the standard height doorknob: is that correct?
A. Around that area, veah.
Q. Okay. And form the standpoint, did you see anybody conduct anv investigation whatsoever to
determine a flight path of a bullet?
A. Yes. They were looking - after he was gone and all was over with. They were talking about
how the shot came through the door and went in the front of mv truck.

p. 210, 23-26’ p. 212, 27-30; p. 213, 3-9
Q. Okay. So A. Went in the bumper.
Q. Where?
A. Went through the front bumper
Q. So straight out. Would this be a straight out shot from the door?
A. I would think so. I don’t really know. But I mean, that’s what I would assume.
Q. It’s not lined up further down the house?
A. No, it’s like a two-place parkway, where we parked at. And I always pulled up in front of the
door.
Q. So you were more or less directly in front of the door?
A. Yes, sir.

24

Issue Two
Whether the United States Fifth Circuit Court ofAppeals and United States District Courtfor
the Eastern District ofLouisiana properly concluded the petitioner received effective assistance
of counsel by counseVs actions of (a) failing to procure a pre-trial hearing on probable cause
and (b) failing to challenge the composition of the jury.
LAW AND ARGUMENT
It was deprived of my Sixth and Fourteenth Amendment to the United States Constitution
and Louisiana Constitution Article I, § 2, 13 and 16 Right to the Assistance of Counsel and a Fair
and Impartial Trial, when trial counsel failed to conduct a procedural Pre-Trail Preliminary
Evidentiary Hearing on Probable Cause and Suppression of Evidence, no evidence subjects to
adversarial testing was presented to the trial court for resolution of the issues defined in advance
of the trial proceeding. And I had 11 women jury that was not a representative of a fair crosssection of the community and counsel systematically excluded men from the jury selection process
was not a strategic and

tactical choice and violates the Due Process and Equal Protection Clauses

of the Fifth, Sixth and Fourteenth Amendments to the United States Constitution. Strickland v.
Washington, 466 U.S. 668, 685 104 S.Ct. 2052, 2064, 80 L.Ed. 2d 674 (1984) and, Taylor v.
Louisiana, 419 U.S. 522, 95 S.Ct. 692, 42 L.Ed. 690 (1975).
He could have brought additional information of Mens Rea that say you have to show and
prove intent before you can charge them with attempt. In the case of attempted murder, you have
to prove they sat and waited or stalked someone and tried to kill them and fail. So I should not
have been facing attempted first degree murder when I went to court. And I believe if we have
had a Pre-Trial Hearing and two of the witnesses for the State told the same story they told in court,
and if my lawyer would have asked the questions I tried to get him to ask in court we could have
proven they perjured themselves and I never would have gone to court. But when we were in court

25

and they were being question on the witness stand he would not ask the questions I asked him to
ask them. We could have proven it there in court if he had asked the questions. And perjury can
be proven now in the transcript of two of the States’ witnesses if I could have my day in court.

CONCLUSION
In retrospect of all presented in this matter, the petitioner states that a Writ of Certiorari
should be granted in this matter.

Respectfully Submitted,

t,),m.-i dLw

Willard Hall #595605
Rayburn Correctional Center
27268 Highway 21, North
Angie, Louisiana, 70426-3030

26

